<html>
<title> - FEDERAL AND NONFEDERAL COLLABORATION, INCLUDING THROUGH THE USE OF TECHNOLOGY, TO REDUCE WILDLAND FIRE RISK TO COMMUNITIES AND ENHANCE FIREFIGHTING SAFETY AND EFFECTIVENESS</title>
<body><pre>[Senate Hearing 115-368]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 115-368

                 FEDERAL AND NONFEDERAL COLLABORATION, 
 INCLUDING THROUGH THE USE OF TECHNOLOGY, TO REDUCE WILDLAND FIRE RISK 
    TO COMMUNITIES AND ENHANCE FIREFIGHTING SAFETY AND EFFECTIVENESS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 3, 2017

                               __________






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov 
        
        
                                ______
			 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
			 
26-872                    WASHINGTON : 2018                 
















	
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada

                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Public Lands & Natural Resources 
                            Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............     5

                               WITNESSES

Christiansen, Victoria C., Deputy Chief, State and Private 
  Forestry, Forest Service, U.S. Department of Agriculture.......     5
Rice, Bryan, Director, Office of Wildland Fire, U.S. Department 
  of the Interior................................................    15
Maisch, John ``Chris'', Alaska State Forester and Director, 
  Division of Forestry, Alaska Department of Natural Resources...    24
King, Steve, Economic Development Director, City of Wenatchee, 
  Wash-
  ington.........................................................    36
Miller, Dr. Mary Ellen, Research Engineer, Michigan Tech Research 
  Institute......................................................    44

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    USA Today article by Robin Will dated June 11, 2015 entitled 
      ``St. Marks Refuge staffer wins Fire Safety Award''........    81
    Map issued August 1, 2017 and produced by Predictive 
      Services, National Interagency Fire Center entitled 
      ``Significant Wildland Fire Potential Outlook--August 
      2017''.....................................................    83
Christiansen, Victoria C.:
    Opening Statement............................................     5
    Written Testimony............................................     8
    Responses to Questions for the Record........................    87
Daines, Hon. Steve:
    Map issued August 1, 2017 and produced by Predictive 
      Services, National Interagency Fire Center entitled 
      ``Significant Wildland Fire Potential Outlook--September 
      2017''.....................................................    61
King, Steve:
    Opening Statement............................................    36
    Written Testimony............................................    39
Maisch, Chris:
    Opening Statement............................................    24
    Written Testimony............................................    27

                                     

Miller, Dr. Mary Ellen:
    Opening Statement............................................    44
    Written Testimony............................................    46
    Responses to Questions for the Record........................    98
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Rice, Bryan:
    Opening Statement............................................    15
    Written Testimony............................................    17
    Responses to Questions for the Record........................    92
Stabenow, Hon. Debbie:
    Opening Statement............................................     5
Wyden, Hon. Ron, et al.:
    Letter of Support for the Crapo/Brown Proposal...............    65

 
  FEDERAL AND NONFEDERAL COLLABORATION, INCLUDING THROUGH THE USE OF 
  TECHNOLOGY, TO REDUCE WILDLAND FIRE RISK TO COMMUNITIES AND ENHANCE 
                 FIREFIGHTING SAFETY AND EFFECTIVENESS

                              ----------                              


                        THURSDAY, AUGUST 3, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here today to take a look at wildfire, to examine 
our wildfire management programs, the collaboration that is 
required to reduce risks to firefighters, communities, and 
resources and some of the emerging technologies that are 
changing the way that fires are managed.
    We are now well into the 2017 fire season. It is certainly 
a very active one. My friend from Montana, I think, is going to 
share some of what is happening in his state this morning, and 
I think it is appropriate to recognize the heroic acts of the 
men and women who fight these fires throughout the season and 
to recognize the loss of a firefighter in Montana.
    Senator Daines.
    Senator Daines. Madam Chair, thank you. I will talk about 
it in my remarks, but we lost a firefighter last night in 
Montana.
    The Chairman. So I understand.
    Senator Daines. It is our second fatality in two weeks in 
Montana of firefighters.
    The Chairman. Well, know that our hearts and our prayers 
are with the families, but again this speaks to the realities 
that we face with wildland fires and with fires around the 
country, that this is dangerous and unpredictable work. Again, 
our thoughts and our prayers are with those who are serving.
    As of August 1st, nearly 39,000 fires have burned almost 
5.5 million acres of land. For comparison's sake, this is an 
area about the size of the State of New Hampshire. In Alaska, 
we have had a low fire year this year, we have had more than 
300 fires burning about 630,000 acres. It is a lot of land, but 
it is below normal for us in Alaska, so we are certainly not 
complaining. Just two years ago, back in 2015, over 5 million 
acres burned in Alaska alone. Mr. Maisch, from the State of 
Alaska, certainly knows and understands this all too well. 
Nationally, 2015 was one of the worst seasons on record, 
stretching nearly all year and burning over 10 million acres in 
total.
    This Committee has spent a lot of time, a lot of good work, 
working on legislation to address the consequences of wildfire. 
We will continue that work until we arrive at legislative 
solutions, hopefully sooner than later.
    What we really need is a comprehensive solution that 
addresses both wildfire budgeting and forest management. We 
need to tackle both of those, at once, because we know the 
wildfire problem is not just a budgeting problem, it is also a 
management problem.
    Last year, our Ranking Member, Senator Cantwell, along with 
Senators Wyden, Risch, and Crapo joined me in putting forward a 
comprehensive solution to address both challenges, we called 
this the ``Wildfire Budgeting, Response and Forest Management 
Act.'' Our proposal included a fiscally responsible fix to 
permanently end the destructive practice of fire borrowing. We 
required Congress to provide resources to the agencies up 
front, enough to cover 100 percent of the average annual cost 
of firefighting over the previous 10 years, while allowing for 
a limited cap adjustment when we experience those truly 
catastrophic years. Our proposal took steps to address the 
hurdles that stand in the way of implementing the fuel 
treatments needed to mitigate wildfire risk, increase 
firefighter safety and make our forests more healthy and more 
resilient. We would have increased the use of technologies, 
such as drones and GPS trackers and fire risk mapping and made 
needed investments in community wildfire protection plans as 
well as ``Firewise programs.''
    We know that our wildfire strategy needs to include all of 
these important pieces of the wildfire management puzzle, and 
we know that other members on our Committee also have good 
ideas that deserve to be considered.
    While our hearing today is focused on oversight of wildfire 
management programs and the use of technologies, our goal is a 
good bill that will fix these problems so the President will be 
able to sign this into law.
    We came up a little bit short in the last Congress but, as 
we will hear today, fires, again, are continuing to destroy our 
lands. There is a lot more that we can do, there is a lot more 
that we must do, from budgeting to new technologies to better 
management practices, to save them.
    Again, I want to thank all of our witnesses for being here 
today, and I want to particularly extend my appreciation to 
Chris Maisch, Alaska's State Forester.
    With that, I will turn to Ranking Member Cantwell for your 
opening remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thanks for 
holding this hearing.
    Before I begin I, too, want to thank the over 35,000 men 
and women who fight fires everyday throughout our country. And 
our thoughts and prayers are with those in Montana who have 
lost lives and to the firefighters who are continuing to battle 
the blazes there.
    These firefighters have been working tirelessly to save 
homes, communities, people and assure that they are always 
there to answer the call. Their diligent work has managed to 
save many hundreds of residents already this year.
    The Chair mentioned our efforts in the last Congress to 
work diligently together in a bipartisan effort. I can assure 
all my colleagues here that there was no stone unturned, no 
late night not visited by she, myself, our staffs, the 
leadership in the United States Senate, to try to resolve the 
fire borrowing issue and to make a down payment on our fuel 
reduction strategies for the future. Unfortunately, we could 
not quite get there with our House colleagues. So any of you 
who think that you can help us get them to pay attention in a 
more serious way, we would be so grateful.
    We have come together on a bipartisan solution in the 
United States Senate to end fire borrowing and to make 
investments for the future. I hope, I certainly hope, that we 
can get the attention of the House to reinvigorate those 
efforts and pass it when we return later after the summer 
session.
    Today we are here to talk about what additional tools we 
can give firefighters. As of today, 50 percent more acres have 
already burned this year than average, and yesterday a forecast 
report was released that predicted the West is likely to 
experience above-normal wildfires over the next month. That 
shouldn't surprise people since we knew exactly what's been 
trending the last few years. While in the State of Washington, 
we have some fires, the rest of the country is seeing even more 
impact. So today's hearing is about the tools that we can give 
to help decrease the risks of firefighting.
    I also want to thank Steve King for being here from 
Washington to talk about the innovative actions that the City 
of Wenatchee has been undertaking to mitigate these risks. We 
know all too well from the Thirtymile Fire, from the Carlton 
Complex, where over 100,000 acres have burned up in one 
afternoon, how fast these fires can move.
    So we want to make sure that we are giving new tools to 
firefighters. If we are seeing a new normal, which I don't want 
to think that it is normal because it is very, very stressful 
for all our communities. But if we are seeing a new increase 
because of the dry conditions and the abilities for fires to 
spread in so many more places, more quickly, what can 
technology do to help us address this and make us safer for the 
future?
    A couple of approaches that my colleague, Senator Gardner, 
and I have been working on, would make sure that we are using 
new technology and tools to help us deal with fires. That is 
use, for the first time ever, real-time wildfire mapping 
aircraft. That is the ability for aircraft to fly over these 
areas or use unmanned aerial vehicles (UAVs) to generate real-
time mapping, depicting where the fires are burning. We also 
should make GPS locators available to fire crews. Wildfire 
Today refers to the combination of crew locations and real-time 
fire maps as the Holy Grail of wildland firefighting because of 
how it would improve the safety for our firefighters.
    This legislation we are proposing would also encourage 
federal agencies to take advantage of some of the tools that we 
have at NASA in order to speed up the planning that goes into 
effect to prevent after-the-fire flooding and erosion. These 
are important issues for us--to map these areas.
    And I know, as we look every year at NIFC's information, 
working with the Forest Service, we know where our bad fire 
seasons are going to be. Not that other spots are not going to 
see an impact, because you never know where a fire is going to 
start, but it gives us information about where to cash and put 
resources so they are ready and available.
    We also want to make sure that we do better with real-time 
weather forecasting information. In the State of Washington, we 
have a gap in the central part of our state. We do not want to 
have a region of our state less-protected because they don't 
have accurate weather forecasting information. We want to build 
on the state of the technology and to make sure that every 
community knows where and when it should not be sending 
firefighters out, given the weather forecast and the challenges 
that we face.
    So I agree with the Chair, we need to work efficiently; we 
need to work together; we need to get, as I'm sure we are going 
to hear about, the ``hasty response'' approach that has been 
used in the central part of Washington--that is to have 
everybody ready. Given the outbreaks of fires in so many 
locations, we would be able to have a hasty response. We also 
need to have a hasty response in getting this legislation over 
the goal line with our House of Representatives.
    So, Madam Chair, thank you for holding this important 
hearing. I thank our witnesses for being here. Again, our 
thoughts and prayers are with those families impacted by this 
fire season.
    The Chairman. Thank you, Senator Cantwell.
    Know that my commitment remains to help address this in a 
way that is going to be more than just, kind of, the herky 
jerky way it has been handled. The fire borrowing really limits 
the ability of our agencies to do the work that we need them to 
do, so having an approach that will yield enduring policy is, I 
think, what we are all looking for here.
    I am pleased to be able to welcome the panel this morning. 
We will have good input, and I appreciate the time that you 
will spend with us.
    We will be led off by Victoria Christiansen, who is the 
Deputy Chief for State and Private Forestry at the Forest 
Service at the Department of Agriculture. Welcome.
    Mr. Bryan Rice is the Director for the Office of Wildland 
Fire at Department of the Interior.
    I have mentioned my friend, Mr. Chris Maisch, who is a 
State Forester for the Alaska Department of Natural Resources. 
He is also here this morning wearing another hat on behalf of 
the National Association of State Foresters. We appreciate your 
leadership there.
    Mr. Steve King is the Economic Development Director for the 
City of Wenatchee, Washington. Welcome to you.
    And I understand, Senator Stabenow, you would like to 
introduce Dr. Miller.

                 STATEMENT OF DEBBIE STABENOW, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. Thank you very much, Madam Chair.
    I first want to thank both of you for an incredibly 
important hearing. As the Ranking Democrat on Agriculture and 
Nutrition and Forestry, I want to work closely with you so that 
we can resolve this so that when we are doing the next Farm 
bill and we have a forestry title to focus on prevention and 
management, all the money is not transferred over to fight 
fires. So thank you for holding this hearing.
    We have tremendous expertise in Michigan. I want to 
introduce Dr. Mary Ellen Miller, who is a research engineer at 
Michigan Tech Research Institute in Ann Arbor. Michigan Tech is 
actually in the Upper Peninsula, as Senator Cantwell knows, way 
up in Houghton, Michigan, where I was not long ago meeting with 
them on these issues--a beautiful, beautiful place. But 
Michigan Tech is a leader in the use of information technology 
to solve security and infrastructure, earth science and 
environmental problems. With the help of NASA, Dr. Miller has 
used models and earth observations to predict erosion and 
runoff after wildfires in Colorado and California. Of course, 
not all of her work is high-tech. She also spends plenty of 
time out in the field with more low-tech tools like tipping 
bucket gauges and a bucket hat.
    So thank you for being with us today, Dr. Miller. We look 
forward to hearing your unique, scientific insights on how 
watersheds are impacted by wildfires. Welcome.
    Thank you.
    The Chairman. Thank you, Senator Stabenow.
    At this time, Ms. Christiansen, if you want to lead the 
panel off, we welcome your comments.

STATEMENT OF VICTORIA C. CHRISTIANSEN, DEPUTY CHIEF, STATE AND 
     PRIVATE FORESTRY, FOREST SERVICE, U.S. DEPARTMENT OF 
                          AGRICULTURE

    Ms. Christiansen. Madam Chairman and Ranking Member 
Cantwell and members of the Committee, thank you for the 
opportunity to discuss collaboration to reduce wildfire risk.
    After the events of yesterday, a loss of one of our own, 
we're all, our hearts are heavy and we send our condolences to 
our whole community.
    It's a very appropriate time for this discussion. Thank 
you.
    My name is Vicki Christiansen, and I am the Deputy Chief of 
State and Private Forestry for the USDA Forest Service. My 
remarks today will be framed by the National Cohesive Wildland 
Fire Management Strategy (Cohesive Strategy), an all-lands 
blueprint for building synergies to address the nation's 
growing wildfire challenges. The three goals of the Cohesive 
Strategy are restoring and maintaining resilient landscapes, 
creating fire-adapted communities, and having an effective 
risk-based wildfire response. The Forest Service is committed 
to restoring and maintaining resilient landscapes across all 
jurisdictions.
    On our national forests, we achieved over three million 
acres of hazardous fuels treatments last year. We also work 
across boundaries with our partners. In 2006, we provided 
financial support to carry out nearly 150,000 acres of 
treatment on non-federal lands.
    Since 2006, we have assessed more than 3,000 fuel 
treatments. And when tested by wildfire, 90 percent of these 
fuel treatments have shown to reduce the impacts of wildfire. 
For example, in Arizona, the fuel treatments associated with 
the White Mountain Stewardship Project dramatically slowed the 
rate of spread of the Wallow Fire to allow firefighters to 
safely attack the fire and protect homes and property.
    The Forest Service collaborates with state and local 
partners to help prepare communities to withstand a wildfire. 
This is challenging because of the increasing development in 
the Wildland-Urban Interface.
    We work with state partners to assist communities in 
developing community wildfire protection plans. These plans 
bring community members together to address wildfire response, 
hazard mitigation and community preparedness.
    As our risk assessment technology has developed, our 
capability to help communities reduce their risk to wildfire, 
has really evolved. For example, you will hear more from Mr. 
King about our community planning assistance for the wildfire 
program.
    Wildfire prevention is a critical element to working 
collaboratively across land ownership boundaries. Nationally, 
nearly nine out of ten wildfires are caused by humans, 
including some of the most costly fires. If we prevent 
unwanted, human-caused fires, we can proactively use our 
resources to create resilient landscapes, improve our response, 
and help communities be prepared.
    A long-standing example of federal and non-federal 
collaboration is Smokey Bear. His campaign is administered by 
the Forest Service, the National Association of State 
Foresters, and the Ad Council. Smokey will be 73 next week, and 
he is one of the world's most recognizable characters.
    Our goal at the Forest Service is to work with partners to 
continuously improve our risk-based response to wildfire. No 
one agency has the capability or the surge capacity to respond 
to wildfire alone, so we have a collaborative approach in the 
U.S. It includes federal, state, tribal, city, county, 
contract, and volunteer firefighters.
    We continue to work with our cooperators and industry on 
emerging technology to help respond to the challenges of fire. 
The Forest Service invests $34 million each year in wildland 
fire information and technology systems, and we work very 
closely with the Department of the Interior to develop an 
integrated approach and prioritize our investments to be able 
to update our legacy systems.
    The central platform is the Enterprise Geospatial Portal. 
The portal provides up-to-date wildland fire situational 
information to first responders, to fire managers and the 
public. Through our research and development branch, we 
continue to collaborate with additional partners, such as NASA, 
on new and emerging technologies. We also partner and DOI takes 
the lead on interagency capability on unmanned aircraft 
operations in wildland fire management.
    Although our missions and priorities among our partners are 
diverse, we are united with a common vision and set of goals 
defined by the Cohesive Strategy established to collectively 
address our nation's wildland fire challenges so we can redeem 
our responsibilities to the citizens of the U.S.
    Thank you for the opportunity to discuss wildfire risk and 
collaboration. We look forward to working with the Committee on 
these important issues.
    [The prepared statement of Ms. Christiansen follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. Thank you, Ms. Christiansen.
    Mr. Rice, welcome.

  STATEMENT OF BRYAN RICE, DIRECTOR, OFFICE OF WILDLAND FIRE, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rice. Good morning.
    Chairman Murkowski, Ranking Member Cantwell, members of the 
Committee, thank you for the opportunity to appear before you 
today and have this discussion. It's important. Thank you for 
the opportunity to talk about the Department of the Interior's 
Wildland Fire Program.
    First, I'd like to start by saying that we in the 
Department are saddened by yesterday's news of the fatality in 
Montana. The Department of the Interior's (DOI/Department) 
heartfelt condolences go out to the family and friends and 
others that are affected by this situation.
    Overall, we are seeing the cumulative impacts of climate 
variability, drought, and invasive species that are creating 
this situation that leads us to being more susceptible to large 
and devastating wildfires. So far this season, we've seen 
outbreaks across the country in numerous, if not all, of the 
geographic areas.
    In working through this, the National Cohesive Strategy, 
which my partner here alluded to, is the backbone of the 
National Wildland Fire Management Policy and it's built on 
collaboration with federal, state, tribal, local, all the 
partners and represents a determined effort by the Federal 
Government to actively involve partners in planning and 
decision-making.
    Fuels management work, active management work, either done 
collaboratively with our partners or done directly on 
Department lands managed through each of the Bureaus within the 
Department of the Interior, is one of the most effective 
strategies for mitigating wildland fire risk.
    For example, in the Department of the Interior's Resilient 
Landscapes Initiative, DOI bureaus actively engage partners at 
the local level on fuels management projects that achieve fire 
resiliency across multiple jurisdictions and broad landscapes.
    This year the Department-supported initiative has added 
value to private landowners, tribal, state, local governments, 
and other federal agencies who work hand-in-hand with the 
Department to safeguard communities. Together we continue to 
plan and execute these activities to reduce overstocked forests 
and woodlands, as well as improve the health of our rangeland 
landscapes.
    It's important also to talk about the advancements in 
technology that play a critical role in many areas of the 
Department's fire program.
    The use of unmanned aircraft systems (UASs) is becoming 
increasingly important in our day-to-day fire suppression 
operations. Interior is the government leader in research and 
development in the practical deployment of UASs for non-defense 
purposes. Currently, the Department uses UASs to support 
firefighters in the field through mapping of fires, use of 
infrared technologies, and the gathering of data for strategic 
fire planning. In addition, the Department has established fire 
operation guidelines for the coordinated use of UASs with state 
agencies, as well as developing the specifications for a 
government-owned fleet of UASs.
    Looking ahead, we're studying the potential role UASs will 
play in fire suppression operations, including their 
effectiveness at delivering fire retardant and cargo in 
environments that may prohibit the safe use of larger piloted 
aircraft.
    In June of this year the Department announced the expansion 
of its wildland fire location data-sharing service named 
current wildland fires available to the public through 
geoplatform.gov and, in addition, the early adopters of Alaska 
and Texas. Other states are added which include Wyoming, North 
Dakota, and California and we're expecting others to engage as 
well. The system informs drone operators, so it is available to 
the public, and informs those drone operators in near real time 
where not to fly so they can avoid interference with ongoing 
fire operations.
    Another important technology advancement that is helping 
improve the Department's response to wildland fires is the use 
of high definition cameras with infrared technologies that help 
spot fires in remote geographic areas across Nevada. The Bureau 
of Land Management's Fire Camera Network Program is a joint 
effort with the University of Nevada, Reno's seismological lab. 
Eight cameras have been installed on remote mountain peaks and 
are used by fire personnel for early fire detection, allowing 
managers to shift resources as needed, to better manage fires, 
reduce costs, and protect local communities. This is yet 
another service available to the public. The data is readily 
available.
    The Department acknowledges we still have plenty of room 
for improvement when it comes to fighting fire efficiently and 
safely. We believe these technology advancements allow us to be 
better positioned to address wildland fire. We look forward to 
continuing to build on these efforts in ways that support the 
safety of the firefighters and the public, enhance our 
firefighting responsibilities, and promote further 
collaboration with our partners.
    Thank you again for the opportunity to discuss the 
Department's fire program, and I'll be happy to answer any 
questions you may have.
    [The prepared statement of Mr. Rice follows:] 

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    The Chairman. Thank you, Mr. Rice.
    Welcome, Mr. Maisch.

 STATEMENT OF JOHN ``CHRIS'' MAISCH, ALASKA STATE FORESTER AND 
 DIRECTOR, DIVISION OF FORESTRY, ALASKA DEPARTMENT OF NATURAL 
                           RESOURCES

    Mr. Maisch. Thank you.
    Good morning, Chairman Murkowski, Ranking Member Cantwell, 
and members of the Committee and my fellow panel members.
    My name is Chris Maisch, and I am the State Forester and 
Director of the Alaska Division of Forestry and past President 
of the National Association of State Foresters. I appreciate 
the opportunity to speak with you today on the topics of 
wildfire risk mitigation and the use of new technology on the 
fire line.
    The mission of my division is to proudly serve Alaskans 
through forest management and wildland fire protection. The 
Division is the lead agency for fire management services on 150 
million acres of land with a primary goal to protect life and 
property.
    My staff works closely with two key partners in Alaska, the 
USDA Forest Service and the Department of the Interior, Alaska 
Fire Service with the latter agency being our main partner in 
Alaska.
    I'd like to address my first topic on reducing risk to 
communities and firefighters by walking you through the process 
of how a fuel mitigation project is created and then deployed 
on the ground.
    My written statement has included several case studies of 
fuel reduction projects that were used in actual wildland fire 
incidents, but I'm going to focus on one project in Alaska. The 
process starts with the State Action Plan which is a key 
document that focuses limited resources via a publicly vetted 
process and reflects individual state priorities. This tiers 
into a CWPP, or Community Wildfire Protection Plan, that goes 
into more detail and can be for a whole community, a 
neighborhood or any jurisdictional unit that works well for the 
planning process.
    Agencies provide science-based input to the types of fuel 
breaks or other fuel treatments that are appropriate for the 
circumstances. Work is conducted at the landscape level and for 
individual properties in Alaska, via our Forest Stewardship 
Program and a nexus with Firewise USA principles. Stewardship 
foresters are experts at working with small landowners and, in 
our program, we offer cost share incentives to work with and 
encourage landowners to fully implement recommendations to 
reduce risk. This work is cross boundary and at scale and 
follows the strategy of defense and depth.
    If you are students of military tactics, you will recognize 
this doctrine--outer rings of landscape fuel breaks and forest 
management that scale into individual treatments and for 
individual properties as you move further into the interface.
    In 2014, the Funny River Fire on the Kenai National 
Wildlife Refuge was successfully stopped at the outskirts of 
the community along the Funny River Road by a landscape scale 
fuel break and a burnout operation as the main fire approached. 
And if you have the written testimony, you can look at page 2, 
Figures 1 and 2, for examples of what these treatments actually 
look like.
    The fire log for the incident reports the progression of 
the fire, and I'd like to read to you several entries:
  --May 19th, at 1600 hours, the Funny River Fire is reported. 
        It's driven by strong northerly winds and by 2230, the 
        fire is seven miles long and three-quarters of a mile 
        wide. That's in two and a half hours.
  --May 20th, the fire grows an additional 21,000 acres and the 
        Alaska Type 2 team takes command of the fire.
  --May 21st through May 24th, the fire increases by another 
        83,000 acres.
  --And finally, on May 25th, the fire grows an additional 
        45,500 acres and the fuel break is used in a burnout 
        operation.
    You can refer to page 4, Figure 3, to see this operation 
taking place as the actual fire hits the fire line.
    Property values protected were over $250 million in value. 
This was a significant test for this type of a fuel break. 
Around the country there are other examples and there are three 
other case studies cited in my written statement, one 
additional project in Alaska and two in Arizona.
    It is worth mentioning that last year 82 percent of 
wildfires and almost 50 percent of acreage burned were on state 
or private lands. Collectively, we need to get in front of this 
problem and continue to provide solid, fiscal support for the 
full range of state and private forestry programs, particularly 
for the SFA and VFA line items. These programs help create 
fire-adapted communities, increased capacity of agencies to 
respond, create defensive space and educate the public.
    Turning to my other topic, I would like to briefly address 
the use of technology incentive--some of the innovative uses of 
UAVs. In my testimony, page 6, Figure 4, you'll see this figure 
shows the Texas Forest Service utilizing a UAV during an 
initial attack fire. This technology has great potential to 
improve fire line safety, increase situational awareness for 
the Incident Commander and operation staff, as well as become a 
standard tool utilized for several purposes.
    The addition of an infrared camera to a UAV platform shows 
great promise for assisting mop-up operations by identifying 
heat in the areas being gridded in real time for crews. My 
written testimony goes into the details of the Texas Forest 
Service Program and joint efforts by the Alaska Fire Service 
and Division of Forestry to incorporate UAVs into our 
operations, including training, equipment needs, and the next 
steps to continue this process.
    In closing, I would like to stress the importance of cross 
boundary fuels work on federal, state and private lands for 
protecting the communities as well as increasing operational 
value and safety benefits of new technologies, such as UAVs and 
fire suppression operations.
    The Forest Service state and private programs are critical 
funding sources for these types of activities and, as 
demonstrated in today's panel, states and the rural fire 
departments are at the forefront of the nation's wildland fire 
problem.
    In addition to the activities discussed, there is an urgent 
need to increase the amount of active forest management taking 
place on federal lands throughout the country. There are good 
examples of federal land managers that are rising to this 
challenge, but too often the appeal process or litigation of 
NEPA documents delay needed projects. Reform is needed to 
address this problem.
    Another helpful tool is the Good Neighbor Authority which 
allows state agencies to partner with the Forest Service and 
BLM to get work done on the ground. Improvements in this 
authority can also be made and that would be based on 
experience of the 95 Good Neighbor Authority agreements and the 
29 states throughout the country.
    Thank you again for the opportunity to discuss these 
important issues and topics with you. This concludes my 
testimony, and I would be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Maisch follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Chris.
    Mr. King, welcome.

STATEMENT OF STEVE KING, ECONOMIC DEVELOPMENT DIRECTOR, CITY OF 
                     WENATCHEE, WASHINGTON

    Mr. King. Good morning, Madam Chairman Murkowski and 
Ranking Member Cantwell and members of the Committee. Thank you 
so much for this opportunity to come to DC and present to you. 
It's my first time.
    And let me present just a little bit of background about my 
career. I serve the City of Wenatchee as Economic Development 
Director and interestingly, 15 years ago, I started performing 
civil engineering work to design water systems for fire 
response based on structure loss in the 1992 Castle Rock fires 
in which over 20 structures were lost in Wenatchee. In 2015 
when the Sleepy Hollow fires hit our city, we did not run out 
of water, so that was a successful mitigation effort.
    However, the disaster still occurred which tells us we need 
to look more comprehensively at how we address wildfire.
    I hope that my testimony today will communicate to you the 
value and the power in communities to act, and the value of 
implementing the risk reduction strategies through multiagency 
collaboratives and partnerships.
    Just a little context for Wenatchee. Most people, when I 
tell them I'm from Wenatchee in Washington State, they assume 
where I am from, we have lush rainforests all around us. 
Wenatchee is on the east slope of the Cascades. It's beautiful, 
but we get ten inches of rain a year and our communities lie on 
the downgradient, downwind sides of the foothills of the 
Cascades. The forests give way to shrub steppe environments and 
wildfire is a reality.
    I grew up in Omak, Washington, two hours north, just shy of 
the Canadian border and next to a retardant base, or back then 
they called it ``borate bombers,'' where we had the World War 
II aircrafts dropping borate on fires just about every year. We 
didn't have large structure loss or huge human impacts at that 
time. I barely remember any losses other than a few 
outbuildings being lost in those events.
    Times have changed. Our communities have grown as we push 
into the Wildland-Urban Interface, and it requires a different 
approach. My uncle served for 30 years with the Okanogan-
Wenatchee National Forest as the spokesperson. I remember 
specifically two times when he had to deal with firefighter 
deaths, so my heart goes out to the folks in Montana.
    In 2015, we had the Sleepy Hollow fires one year after the 
Carlton fires when 322 homes were lost in the Okanogan area. 
The Sleepy Hollow fires caused the loss of 29 homes and 30 
acres of warehouses right in the middle of our community.
    I was there during the event. I saw the fire turn from a 
calm, brush fire and when the winds picked up in the afternoon, 
the fire traveled over a mile in 20 minutes and was in the 
edges of our city and houses were exploding. I saw that and 
watched in horror as the firefighter response efforts were 
quickly overwhelmed, and we then saw house embers leaping from 
house to house. And then over a two-mile jump into the heart of 
the city. It's hard to imagine, as you're in the middle of 
that, that all of a sudden, the radio calls out, and we have 
structures in downtown and a chemical facility ablaze, and it 
was like, oh boy, this just went to a whole new level. So, I 
will never forget this, but people do, people that aren't 
directly impacted do forget, and new people come to a 
community. And so, keeping that presence of understanding that 
we live in an environment where this can happen is really 
important. And I'll talk a little bit about how risk mapping 
does that, it helps keep that in the forefront.
    I also want to say thank you for the effort or the 
investment in training opportunities through the National Fire 
Academy, through the Community Planning Assistance for Wildfire 
Programs. The Chief of our fire department and us have taken up 
these opportunities. One of our goals is to become better 
educated in the understanding of this, of the realities of 
these events.
    Risk mapping. Two weeks ago, I sat down with the staff from 
the Forest Service, Rocky Mountain Research Station, and we 
worked on the risk map for Chelan County. There's some 
significant values that come out of risk mapping and one of 
them, as evident last week or the last couple weeks, was that 
it brings everybody together. Agencies have different value 
sets and that comes out when you start talking about risk 
mapping and fire behavior.
    It's also a tool for call-to-action. As I mentioned before, 
people forget. Risk mapping lets you simulate a disaster 
without actually having to go through the disaster. It lets us 
inform. It informs us on how to implement our codes, our 
wildland-urban interface codes. It tells us the effectiveness 
of risk reduction strategies such as vegetation management. It 
provides us information on how to protect critical 
infrastructure, like water systems or communication systems.
    And then, the technology is changing and will continue to 
change. For example, there's a lot of studies being done right 
now on ember transport, especially from structures. And so, 
risk mapping, ultimately, will incorporate that new science and 
technologies to help us grow as the science becomes available.
    I just want to, again, come back and stress that our 
Wenatchee Foothills are made up of lands owned by the Forest 
Service, the Department of the Interior, our local non-profit 
land trusts, our State Natural Resources Department and the 
City of Wenatchee, Chelan County, and the private property 
owners. It's absolutely paramount that everybody participates 
in these activities.
    Risk mapping also shows the importance of that. One 
property owner can lose their house, then you can lose it all 
if somebody doesn't participate. So, once again, it's a call-
to-action. It's a leveraging tool, as well as a technology tool 
that brings people together.
    So I hope you can see our passion at the City of Wenatchee 
and how we're trying to prevent this from happening again.
    I had to tell our planning commission that we live in a 
world of wildfire and that wildfires will continue to happen, 
and disasters will happen. But if we do this successfully, we 
can--maybe instead of 20 years, it will be 100 years before the 
next disaster, or better yet, not even 100 years. And it takes 
this comprehensive approach to actually achieve that goal.
    So, with that, again thank you, and I would be happy to 
answer any questions.
    [The prepared statement of Mr. King follows:] 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Mr. King, I greatly appreciate it.
    Dr. Miller.

STATEMENT OF DR. MARY ELLEN MILLER, RESEARCH ENGINEER, MICHIGAN 
                    TECH RESEARCH INSTITUTE

    Dr. Miller. Good morning, Chairwoman Murkowski, Ranking 
Member Cantwell and members of the Committee. My name is Dr. 
Mary Ellen Miller, and I'm a Research Engineer at Michigan Tech 
Research Institute. My Ph.D. is in Environmental Engineering 
with a Master's in Imaging Science. Thank you for inviting me 
here today to share with you my NASA-applied science work in 
post-fire remediation.
    My team has built an online data base to rapidly combine 
earth observations of burn severity with process-based model 
inputs. Post-fire flooding and erosion can pose a significant 
threat to life, property, and natural resources such as our 
valuable water supplies.
    As part of my Ph.D. program, I worked on a very large-scale 
EPA project designed to help plan fuel reduction treatments 
with a goal of protecting our water resources from high-
severity fire impacts. When this project ended, I used the data 
sets and tools that had been developed to rapidly predict post-
fire erosion for Forest Service BAER teams in Colorado.
    BAER, or Burned Area Emergency Response teams, just have 
one week to assess a wildfire scar and decide if they need to 
make remediation plans or not. So earth observations of burn 
severity are critical in this process but I was very surprised 
to learn from my Forest Service research colleagues that 
spatial process-based, hydrological models were being 
underutilized.
    I really didn't understand why until 2011 when the National 
Park Service asked me to model a small watershed that burned 
within the Rock House Fire in Texas. It was only 500 acres, and 
I had previously modeled 75 percent of the forests in the West 
in three months. So I thought, this is going to be easy, I can 
do this.
    I was wrong. Texas was not part of the original EPA area, 
and it took me over a week to assemble the inputs that I 
needed. I was one day late in getting the modeling to the BAER 
team so it could not be used in the analysis. A year later, in 
2012, I modeled 80,000 acres of the High Park Fire for the BAER 
team in two to three days.
    The difference between success and failure was, simply, 
preparation. I didn't want what happened at the Rock House Fire 
to happen again, so I'm very proud to introduce a new, online, 
Rapid Response Erosion Database. We're calling it RRED, for 
short. RRED allows users to upload a soil-burn severity map 
into the online database and within seconds download all the 
properly formatted spatial model inputs needed to use process-
based models. RRED was created through a collaboration between 
Michigan Tech, the NASA Applied Sciences Wildfire Program, and 
the USDA Forest Service Rocky Mountain Research Station.
    Data preparation that used to take a week can now be done 
in seconds. Spatial predictions of runoff and erosion will 
allow the BAER teams to spatially prioritize costly, post-fire 
remediation treatments.
    I'm proud to say RRED has been used on several major 
fires--last year on the Soberanes Fire. The year before, in 
2015, the modeling results were used to spatially place $3 
million worth of projects in watersheds. And the year before in 
the King Fire, $1 million worth of mulching in order to protect 
a valuable hydroelectric water reservoir. RRED has also been 
used on four large fuels planning projects to protect our water 
supplies, including one in the Mokelumne Basin in California.
    Our future goals include expanding our spatial coverage to 
include Alaska and Hawaii. We would also like to improve RRED's 
capabilities for supporting fuels planning projects, and we are 
developing a new modeling interface to work in conjunction with 
RRED to make it even easier.
    Thank you very much for your interest in fire science. It 
is very important. Research and education outreach are vital in 
order to support our brave, wildland firefighters and BAER 
teams.
    Thank you very much, and I will be happy to answer any 
questions.
    [The prepared statement of Dr. Miller follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Dr. Miller.
    I thank each of you. I think we recognize that how we are 
approaching firefighting, how we are approaching forest 
management, has changed over the years. And when you listen to 
the technologies that are now available to us, we have seen a 
lot of innovation.
    Dr. Miller, I appreciate the research and the mapping that 
you are doing.
    I think we recognize that we have new tools, which is 
great, but we are dealing across multiple agencies, dealing 
with tribal lands, dealing with state and private and federal 
lands. It is an example where if you are not working together, 
collaboratively, bad things can happen.
    Sitting in this Committee for the past 14, 15 years, 
listening every year to where we are with fire status report 
and how we are working across agencies, the discussion is 
always, oh yes, we are working together. It is interagency. It 
is collaborative. I really do think that we have made 
extraordinary gains in doing just that.
    Chris, you mention the cross-boundary fuel efforts. I will 
direct this question to you, Ms. Christiansen, and Mr. Rice and 
Mr. Maisch as well. With regards to how we determine or the 
process that the federal agencies utilize to determine where 
these fuel mitigation projects should occur on federal or 
across boundary lines, what is the process? I am assuming that 
your offices work with the land managers to help make these 
decisions?
    What more do we need to be doing to make sure that we are 
not just talking about good collaboration but that any 
impediments to that are removed because, as we all know, the 
fire does not know the boundary between BLM lands or state or 
private lands? What more do we need to be doing in this realm?
    Ms. Christiansen. Thank you, Senator. I'll take a first go 
at this.
    I really appreciate the perspective and that really is the 
articulation of the Cohesive Strategy, the three national 
implementation principles of the cohesive strategies 
collectively across jurisdictions in a landscape scale 
inclusive of communities to which we say, co-manage risk, to 
look at the risk factors in an entire landscape and what those 
critical values are at risk.
    And no one agency can take on an activity that might 
transfer risk to others. Prescribed fire is a perfect example. 
Prescribed fire is often a very important tool to--it's taking 
on some short-term risk, but to greatly reduce the long-term 
risk by----
    The Chairman. Well, translate that into real application 
though. You have one agency that believes you should move 
forward with prescribed burn, but your community says no, this 
is a dangerous time of year to be doing that. We know we get 
high winds and the conditions on the ground. There is inherent 
tension between the desire of one agency----
    Ms. Christiansen. Yes.
    The Chairman. ----and what you may have in another agency 
or out in the community.
    Ms. Christiansen. Yes, thank you.
    As Mr. Maisch mentioned, tiering from some very state level 
plans or federal level plans into community wildfire protection 
plans, we, our analytics are so improved that we can sit down 
together with different jurisdictions and community members and 
we can map and show the risk, as Mr. King suggested. So it's 
our real-time analytics are so advanced than they were even 
five years ago that brings the collaboration principles for 
decision-making in that risk sharing.
    So----
    The Chairman. Right.
    Let me interrupt because I am running out of time here.
    Ms. Christiansen. Sure.
    The Chairman. Let me ask, Mr. Rice and Mr. Maisch, are you 
satisfied that we really are as integrated as we need to be?
    Mr. Rice. Chairman, thanks for the question, the topic. I 
know your time here is short, but it's complicated, right? And 
with it being complicated, the conversations that need to take 
place, the engagement that needs to happen across all the 
jurisdictions. So, whether it's dealing with Indian tribes, 
federal lands, state lands, counties, all the other 
jurisdictions, it takes this level of personal engagement for 
all of our managers, our leaders, everyone that's involved.
    Can we improve? I think we can improve, but as Ms. 
Christiansen was just saying, we're making leaps and bounds 
from where we've been in the past.
    The Chairman. Mr. Maisch?
    Mr. Maisch. Yes, thank you, Senator.
    I would agree with our previous two speakers here that 
there's places in the country where we're definitely very 
coordinated and then there's other places where there are 
challenges.
    The Chairman. Hopefully, we can learn from that, though.
    Mr. Maisch. Yup, for sure.
    You want to do the lessons learned and then definitely 
learn from mistakes that have been made in the past.
    I think one of the ways to help with the community piece in 
terms of buy-in, getting communities to buy in, is 
demonstrating that these projects actually do work and when 
there is an incident that there is payback, that we are able 
to, in many cases, use those fuel breaks and the preparations 
have been taken to reduce the risk, not only to the community, 
but more important, not more importantly, but equally 
importantly, to the firefighters that are actually protecting 
the values at risk.
    The Chairman. I think we saw that with the Funny River 
Fire.
    Mr. Maisch. For sure.
    The Chairman. Yes.
    Mr. Maisch. And some of that is using, you know, 
technology.
    The Joint Fire Sciences Program is a key program that 
really provides a lot of very good information to practitioners 
at the operational level.
    One project in Alaska that program is working on at the 
University of Alaska Fairbanks is showing and demonstrating 
that the fuel mitigation projects, the different types, a 
shaded fuel break, a masticated fuel break, pruning, all the 
different things we can do, how effective those actually are in 
different fuel types when a fire impacts one of those 
treatments.
    The Chairman. Thank you.
    Mr. Maisch. So that buys confidence from a community that 
what you recommended will work.
    The Chairman. Which is key.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Mr. King, the only thing you didn't say was that Wenatchee 
is the apple capital of the world.
    [Laughter.]
    When you think about apples and our economic input/output 
in that central part of the state, it is about $2.4 billion or 
$2.5 billion a year. So it's a big risk when fire impacts it. 
And you did a good job of explaining that we are on the slope.
    One of the questions I have for the panel is this: use of 
new technology, because that is really what we are finding with 
these changes of conditions, that having data and information 
can help us know when to go and when not to go.
    I think we can all say there were probably some incidents 
in the last two big fires we had in Washington where people 
probably did go and that was probably the wrong decision. The 
conditions were just too volatile to try and create a stand 
there.
    So my questions are--Mr. King, what is the output? Right 
now I know that when you were talking about house-to-house, 
literally a community was at risk when one person had shrubs. 
You go along and you would see that these houses would be 
burned and this house would be saved. So what is it you think 
risk mapping is going to give you?
    Mr. Rice, can you talk about the GPS system and whether you 
support the GPS system and the aerial mapping my colleague, 
Senator Gardner, and I plan on introducing to encourage 
monitoring, real-time mapping?
    Ms. Christiansen, if you or Mr. Rice want to comment, I 
don't understand why we have foreclosed on this water scooping 
contract with the Forest Service. I don't know that we have 
conclusive data on its cost versus effectiveness. One of the 
things we've learned in the central part of the state is when 
you need hasty response, one of the best tools that you have is 
scoopers to access and dump water on these sites. Why would you 
conclude right now that we really don't want to have that kind 
of capacity at all?
    If you could address those, thank you.
    Mr. King. Yes, good question.
    The risk mapping has been phenomenal in informing us about 
the characteristics of how the fire approaches a city and gives 
us some idea of how to implement mitigation strategies along 
the structures.
    And so, two things. One, it tells us how to manage the 
landscape so that that predictable fire behavior is what we 
understand will happen. And then two, it tells us, for example, 
ember casts from the vegetation, what depth into the city do we 
expect to have a risk of structure loss.
    The number one strategy is you don't want any structures to 
go up. Once the structures go up, you're into a new fuel type. 
It's called housing fuel types and it's--that's a whole 
different game.
    It really demonstrates the importance of, as I mentioned 
earlier, engaging all the property owners, whether they're 
spread out into the wildland areas or in the city themselves, 
to make sure and implement those practices to prevent that 
structure from going up.
    Then it also empowers the land managers, whether it's BLM, 
DNR, city or county, to implement the right type of fuel 
mitigation strategy so that, basically, the flames lay down 
before they get to the houses.
    Senator Cantwell. Thank you.
    Mr. Rice, does DOI support GPS for firefighters?
    Mr. Rice. Senator, great question and thank you for that.
    The way that we're looking at GPS and the technology that 
we're using within fires, there's a litany of options. There 
are numerous types of capabilities that are out there.
    We're looking at cost capability, what can actually be 
deployed and then how do we manage that data on the back end to 
make it useful.
    In terms of do we support looking at ways--we support 
looking at different options and how we can actually come up 
with a solution that's beneficial to the firefighters on the 
ground, the managers in the field, the leadership that's 
actually involved at all levels.
    Senator Cantwell. Okay. I'm going to come back for more 
clarity on that.
    Ms. Christiansen, what about using these water scoopers? 
Why have we concluded right now that that's not a good idea?
    Ms. Christiansen. Thank you, Senator Cantwell.
    Water scoopers are certainly a tool in our aviation 
toolbox, our aviation strategy. We have not concluded that 
they're ineffective, but as you know in our proposed FY'18 
budget we had to make some critical choices and look at being 
good stewards of the taxpayer's dollars. And so, in that 
choice-making, we will not, we're not planning to hold an 
exclusive-use contract that can access these water scoopers 
through, what we call, the call-when-needed mechanism. 
Currently this year, we have two under exclusive-use contract 
and two on call-when-needed.
    Senator Cantwell. I'll follow up with this on another 
round.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Cantwell.
    Senator Daines.
    Senator Daines. Thank you, Chair Murkowski, Ranking Member 
Cantwell, for holding this hearing.
    As it has already been discussed earlier, Montana is 
experiencing a very busy wildfire season. We have seen over 
1,200 fires so far this year. In fact, as we speak, there are 
31 fires burning across the state. Just yesterday, the top ten 
national priority fires were all burning in Montana.
    Much of Western Montana is clouded by smoke. It is leaving 
unhealthy air quality for tens of thousands of Montanans. 
Hundreds more are under evacuation orders.
    Tragically and worst of all, Trenton Johnson, a courageous, 
19-year-old from Missoula, who also was a sophomore at Montana 
State University, my alma mater, died while battling a fire. 
Then just yesterday afternoon, we received word of another loss 
of life. We lost a firefighter while fighting the Lolo Peak 
Fire. The name has not yet been released. Our thoughts, our 
prayers, go to the families of these brave men and women, who 
are protecting our lives, protecting our property while risking 
their lives on these wildfires on the front lines. Both appear 
to have been hit by falling trees.
    Unfortunately, the National Interagency Fire Center 
anticipates above normal wildfire potential in Montana. Ranking 
Member Cantwell shared the map, the August map. Looking forward 
now, the September map shows that the dire conditions look to 
continue.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Daines. We are having discussions now in early 
August that normally happen in early September, so we have a 
long way to go yet in this fire season.
    We do need to address how we fund and prepare communities 
for wildfires.
    We also need to recognize wildland firefighters for what 
they do and give injured firefighters flexibility in the 
retirement compensation. This legislation that Ranking Member 
Cantwell and I have introduced would do just that.
    It is also critical that we pursue management reforms that 
allow us to use proven tactics that reduce the threat of 
wildfires near our Montana communities and do what we can to 
reduce the intensity of the fires during these times of higher 
potential.
    Furthermore, we know that wildfires will never know the 
difference, as the Ranking Member and the Chair have just said, 
between Forest Service, BLM, and private property, so reducing 
fuel loads across boundaries is integral to reducing fire 
severity.
    On a phone call I had last night, it seems like I am on the 
phone a lot at the moment with our county commissioners, our 
sheriffs, other law enforcement officials, those who are 
running these fires, incident commanders. Just last night I had 
a conversation with one of our county commissioners in 
southwest Montana in the midst here of evacuation orders being 
issued of a large fire that is rapidly spreading. He mentioned 
to me that they cannot get near one of the large transmission 
lines that cuts across our state because of the additional 
carbon particulate in the air which creates arching with high 
voltage transmission lines and it presents a risk to the 
firefighters. So it just reminds us that we need to move 
forward here.
    There is a bill that I am going to be working on and am 
planning to introduce, that has passed the House, called the 
Electric Reliability and Forest Protection Act. It passed the 
House 300 to 118 in June.
    What it does. It will speed up the process for removing 
hazardous fuels that are adjacent to electrical infrastructure, 
because I will tell you what, when the fires are burning like 
this, we cannot even get our firefighters near it because it 
presents a risk to their lives. We need to do that proactively 
ahead of time.
    We need to get to the heart of the discussion and showcase 
the value of collaboration, this cross-boundary work. Our 
forest communities will only continue to be frustrated by a 
lack of management as they live in fear of wildfires.
    Ms. Christiansen, the Park Creek and Arrastra Creek fires 
in the Helena National Forest are burning in the location of 
the Stonewall Vegetation Management Project. This area was 
identified by the Forest Service and local collaborative as an 
area in need of restored treatment and in need of hazardous 
fuel reduction, but this project was blocked through an 
injunction due to the disastrous Cottonwood decision. Now we 
unfortunately have intense wildfires burning over 8,000 acres 
and one can only wonder if implementing the project without 
delay might have made a difference. This is infuriating.
    My question is, was the Stonewall Project conceived through 
a collaborative process?
    Ms. Christiansen?
    Ms. Christiansen. Yes.
    Senator Daines. Did the Forest Service do robust, 
scientific analysis in preparing the project?
    Ms. Christiansen. Yes, Senator, we did.
    Senator Daines. Absent the injunction, would the Stonewall 
Project have reduced the area's susceptibility to wildfire?
    Ms. Christiansen. For this particular project, I cannot say 
for certain, but in the over 3,000 assessments of hazardous 
fuels treatments we have assessed, 90 percent of them, when 
tested by wildfire, have changed the behavior of the fire.
    Senator Daines. I am out of time.
    I will say I appreciate Secretary Purdue, as well as 
Secretary Zinke's clear support of my legislation to undo the 
damage of the Cottonwood decision.
    Senator Tester and I are together on this. The Obama 
Administration was supporting us in these efforts, and we will 
keep fighting until it is signed into law.
    Thank you.
    Senator Barrasso [presiding]. Senator Wyden.
    Senator Wyden. Thank you very much.
    I want to thank all our witnesses. I think it is very clear 
that the system of fighting fire in this country is a broken, 
dysfunctional mess. This fight has been going on. It is the 
longest running battle since the Trojan War. And now we have an 
emergency, a wildfire emergency, declared by our Governor.
    Now Senator Crapo and I went with one approach. Two hundred 
fifty groups--forestry groups, scientists, environmental folks, 
all of whom endorsed the legislation. Still nothing happened.
    I asked the Chief here a few weeks ago about the costs of 
inaction, and the Chief said, ``It is millions of acres 
untreated and we're out $1 billion over a 10-year period.'' 
This just cannot continue.
    So what I would like to ask is about a new approach that 
reflects that FEMA, the Federal Emergency Management Agency, 
recently said that wildfires change landscapes so dramatically 
that communities affected by them are at a significantly higher 
risk of flooding.
    Now a few weeks ago, the Banking Committee, led by Chairman 
Crapo and Senator Brown, introduced a Flood Insurance bill that 
incorporates a wildfire fix.
    Ms. Christiansen, to what extent do wildfires increase the 
risk of catastrophic flooding?
    Ms. Christiansen. The--there is an association, Senator. 
Often, the catastrophic fires that are very intense, burn hot, 
they scar the soils and the water is not able to penetrate into 
the soil bed. So that's why we have our BAER process, as Ms. 
Miller described.
    Senator Wyden. You do not have difference of opinion, 
though, with respect to FEMA, that the wildfires can cause a 
significantly higher risk of flooding?
    Ms. Christiansen. We, the Administration, have not taken a 
position on that particular bill.
    Senator Wyden. I asked you.
    Ms. Christiansen. Yes.
    Senator Wyden. I am not asking you about your position. I 
am asking about the science. FEMA is talking about the science. 
Do you disagree with the science?
    Ms. Christiansen. No, sir.
    Senator Wyden. Thank you.
    One other question and also Mr. Chairman, as a matter for 
the record, Senator Risch, Senator Heinrich and Senator Merkley 
and I would like to have put into the record a support, a 
letter of support for the Crapo/Brown proposal.
    Senator Barrasso. Without objection.
    [The information referred to follows:]
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    Senator Wyden. One last question, if I might, Ms. 
Christiansen. The Obama Administration supported finding an end 
to fire borrowing. Every year, more and more of the budget is 
used to pay for wildfires, leaving forests in poor health and 
at an even greater risk of catastrophic wildfires.
    I would just like to get, for the record, because I don't 
think you all have been asked about this, is the Trump 
Administration's position the same as the Obama 
Administration's position on this? Do you support ending fire 
borrowing and finding a way to address the rising 10-year 
average? I just think Senators need to know whether the Trump 
Administration, on that issue, is willing to support the Obama 
Administration's position?
    Ms. Christiansen. Senator, thank you.
    Yes, the Administration is absolutely committed to finding 
a solution that addresses the increasing 10-year average as 
well as ends the practice of fire transfer.
    Senator Wyden. I think I am going to say that you are 
pretty much in sync with the Obama position on that.
    Ms. Christiansen. This Administration supports a fire 
funding fix. Yes.
    Senator Wyden. Do you have a problem with saying you are 
pretty much in sync with the previous Administration?
    I just don't want us to have to start over. I want to work 
in a bipartisan way with the Administration.
    Ms. Christiansen. I would say it is a continuation of, as 
you suggested, a long-standing issue that we know needs to be 
resolved, Senator.
    Senator Wyden. Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Lee.
    Senator Lee. Thank you, Mr. Chairman. Thanks to all of you 
for being here.
    Ms. Christiansen, I would like to start with you, if 
possible.
    Utah recently suffered a catastrophic, 70,000-acre wildfire 
in the Dixie National Forest in Southern Utah. The fire 
destroyed a total of 21 structures, including 13 homes, and it 
also resulted in a 13-day evacuation of the nearby town of 
Brian Head. So we have two 13 numbers there. It sounds like a 
lot of bad luck, and it is.
    But there is more than just bad luck at play here. I think 
there is some policy at play that needs to be looked at. While 
the Brian Head fire began, of course, on private land, it was 
of no surprise to local residents that once that fire started 
it quickly spread into the Dixie National Forest which was soon 
engulfed in flames.
    I have heard frequently from local leaders at the area who 
have described this entire area as a tinder box. This was a 
wildfire that was just waiting to happen, in part, because it 
was overrun with dead and insect-infested timber and that this 
area was just full of hazardous fuels. A fire of this magnitude 
of this area was, as a result, all but inevitable, largely 
because of poor management.
    Now you mentioned that the Forest Service treats about two 
million acres of forest land each year for hazardous fuel 
treatments.
    Ms. Christiansen. Three million, Senator.
    Senator Lee. Three million, which is great that you are 
treating three million.
    It is my understanding that only about 200,000 of that 
involves timber harvest. Is that right?
    Ms. Christiansen. That's correct.
    Senator Lee. Okay, so I think this ought to be examined, 
because beyond its use in wildfire prevention this also carries 
other benefits with it as well.
    This is a reliable, renewable source of income for a lot of 
these communities where there is a lot of forest land. But I 
consistently hear from county commissioners and other officials 
in my state and local residents in many of these affected areas 
that forest management policies make it harder to harvest 
timber, even where doing so, as I am certain would have been 
the case here, would result in significant mitigation against 
the risk of wildfires.
    So what can you tell me? What is the Forest Service doing 
or planning to promote timber harvesting as a mutually 
beneficial means of preventing wildfires and reducing hazardous 
fuels?
    Ms. Christiansen. Thank you, Senator.
    The Forest Service is very committed and working 
aggressively on increasing the scale and the pace of our forest 
management and fuels treatment. We are working to streamline 
our environmental clearances processes and working with others 
on new tools and ways to do that, but the bottom line is the 
community engagement, the collaboration early.
    Secretary Purdue has said it's an absolute priority. We 
absolutely are on board that we engage communities, that would 
be the environmental community, the industry, those that their 
jobs and livelihoods are dependent on these forest resources, 
early, in project proposals. So that's how we can get to 
agreement and we can get the work done in the clearance.
    Now, as you know, more and more of our resources have gone 
to wildland firefighting. In just the last three years, as the 
increasing 10-year average has gone up, that's $270 million out 
of our non-fire budget that the Forest Service no longer has 
available. So, we do have a resource constraint as well.
    We're both working on early collaboration, getting, we get 
communities to buy in and that we can add supported projects, 
working on efficiencies in our environmental reviews and 
clearances and with your help, working on a long-term fire 
funding fix so we have the resources to do just what you said.
    Senator Lee. Timber harvesting is part of that?
    Ms. Christiansen. Absolutely.
    Senator Lee. Okay.
    Thank you very much. I see my time has expired.
    The Chairman [presiding]. Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    This is a question I am going to ask a couple different 
witnesses to comment on. As wildfires burn across the country, 
the need to take swift action to improve forest health and 
prevent another year of catastrophic wildfires, to me, is 
undeniable. As these fires become more frequent, more severe, 
more costly, wildland habitat is destroyed, air and watershed 
quality is compromised, and human life is threatened. Hundreds 
of millions of acres require immediate treatment, and I believe 
this number is going to continue to rise if we do not improve 
active forest management. Ms. Christiansen, you are shaking 
your head yes.
    Mr. Rice, I have a question for you. What additional tools 
do you need to be more proactive in forest management and 
enhance some of this cross-boundary coordination that I believe 
is critical?
    Mr. Rice. Thank you, Senator.
    So looking across the Department of the Interior, we have 
four bureaus, three of which have active timber programs of 
various sizes and scales.
    To give you more detailed information, I would have to 
gather it from them and provide it to you for the record, but 
in general the things that really improve and increase our 
actions on the ground is this notion of collaboration. So, it's 
empowering our managers, our local leaders, to engage, outside 
the boundaries, to work cross-boundary and increase the 
activities.
    Senator Barrasso. Ms. Christiansen?
    Ms. Christiansen. Thank you, Senator.
    I will say that the tools afforded in 2014 Farm bill, Good 
Neighbor Authority, insect and disease designations, those have 
really been helpful because we look at the landscape scale. 
We're able to work with our partners who have the resources at 
the right time, whether it's our state partner or another 
federal partner, a tribal community. We're able to engage and 
activate across boundaries.
    So continuing, we have, I think you know we have a few 
fixes we need in the Good Neighbor Authority, continuing those 
cross-boundary authorities. And just in state and private, for 
example, we're able to easily have authorities to work with our 
state partners so sometimes they can institute some leverage 
funds that we're able to give them. That's the thanks, and 
let's keep on working on those tools.
    Senator Barrasso. Mr. Maisch, anything you would like to 
offer as well?
    Mr. Maisch. Yes. I would say categorical exclusions are a 
tool that can be used and the increase in the size of those 
types of inclusions would certainly be helpful.
    As Vicki has already discussed, Good Neighbor Authority, I 
believe, is a very strong tool that should be expanded 
dramatically. It's really a co-management concept where the 
states and federal agencies can work together, side boards on 
appeals and litigation would certainly help with moving 
projects along quicker.
    And the forest plans, themselves, as they're amended or 
updated, need to really reflect timber management as a key way 
to achieve many of the objectives that we're talking about here 
today. And right now, in my opinion, a lot of plans do not.
    Senator Barrasso. Thank you.
    Ms. Christiansen, today you repeated the agency's 
statistics. I think nearly 480 million acres across the country 
are in need of some sort of treatment because 480 million acres 
are at an elevated risk of catastrophic wildfire.
    Now it says the Forest Service meets their goal for this 
year, the agency is going to treat only 2.2 million of the 480 
million acres. And I appreciate the barriers the Forest Service 
and other land management agencies are facing.
    The fact remains that failing to address overgrown forests 
and wide swaths of dead trees due to beetle kill have made many 
of the forests a ticking time bomb when it comes to fire.
    Just yesterday the National Interagency Fire Center updated 
the significant wildland fire potential outlook map for August. 
I know it has already been shown here today. A significant 
portion of Wyoming is at above normal risk for a catastrophic 
wildfire event.
    How do reports from groups like the National Interagency 
Fire Center and data from state agencies factor into the Forest 
Service's planning for future fuel treatments?
    Ms. Christiansen. Thank you, Senator.
    I definitely agree with your sentiments, but just a slight 
correction. Our estimate is 480 million acres of all forests in 
the nation are at risk of catastrophic wildfire. Of that, 94 
million are National Forest System lands. So we're all in this 
together. We still have a big challenge as a nation, certainly.
    The analytics that we've been talking about, about risk and 
the projections that we have from our researchers on the fire 
risk, we can start to marry those together better. Now weather 
is the factor that goes into these three-month projections, and 
unfortunately they're not so good to be able to project weather 
out over a two-year period. But we do have projections where we 
have come from and where we think we will remain in drought and 
otherwise.
    With the thanks to the additional hazardous fuels funds 
from Congress, we are really working with these predictions of 
where our highest hazard areas are and where there are state 
and federal and tribal governments that are ready to synergize 
with us. So we go risk and then we go priority and we look at 
these projections. We're not just sending these dollars out in 
a formula fashion. We're really investing them, highest 
priority, where we can get the highest leverage with others.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    Let me just conclude by saying, Madam Chairman, that our 
forests are diverse ecosystems that need immediate attention. 
Thinning of overgrown stands and removing dead and downed 
timber are going to reduce fire risk.
    We must also make sure that we are spending the federal 
dollars responsibly, as you have just said. I recognize 
coordination among local, state and federal agencies as a key 
to success. I am concerned that some offices, like the one that 
Mr. Rice represents today, duplicate functions of more 
successful agencies.
    I am going to submit questions on this issue for the 
record, and I look forward to hearing from you, Mr. Rice, with 
some of those responses.
    So, thank you very much, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    First of all, our hearts go out to the two firefighters 
that were lost in Montana and our hearts are with their 
families and also with those who are still fighting those fires 
out there.
    Chief Tidwell, of the Forest Service, and I have discussed 
the impact of climate change on wildfires several times in this 
Committee. As Chief Tidwell shared, Forest Service scientists 
believe that climate change is one of the major factors in 
driving the longer fire seasons that we are seeing with 
wildfires that are larger and more intense. In fact, fire 
seasons are now, on average, nearly 80 days longer than they 
were in 1970 and wildfires burn twice as many acres today as 
they did in 1980, the first was 1970.
    Do any of the panelists disagree with the Forest Service 
scientists that climate change is driving longer and more 
intense, fire seasons?
    Anybody disagree?
    [Panelists all shake their heads, no.]
    Okay.
    And do any of the panelists disagree that we are seeing 
significant costs associated with fighting these fires?
    By your testimony, of course not.
    [Panelists all shake their heads, no.]
    So despite this Administration's attempt to deny climate 
science and to muzzle experts, we are already seeing the 
impacts of climate change. We are seeing longer and more 
intense fire seasons that have real consequences, as we have 
seen, to our ecosystems and to our rural communities is driving 
up costs to the Federal Government and will just continue to 
get worse if we do not take decisive action.
    Now these increases in firefighting costs are leaving less 
funding for other important programs, fire borrowing. In fact, 
the Forest Service has 39 percent fewer staff in non-fire 
positions today than it did less than 20 years ago. This is 
seriously impacting forest management in Minnesota and 
elsewhere.
    It is even impacting work to reduce wildfire risk through 
hazardous fuels treatment. Ms. Christiansen, in your testimony 
you state that fuel treatments can save two to three times in 
avoided costs of fighting fires down the road. Could you talk 
about how fuel treatment can ultimately save money?
    Ms. Christiansen. Thank you, Senator.
    Yes, that study is a study done in the Sierras in Nevada, 
the Joaquin Watershed, where the avoided $1 spent on hazardous 
fuels treatments could save $2 to $3 in avoided costs of fire 
suppression, the loss of watershed viability and other losses 
due to a wildfire. And there's some other studies locally, 
Flagstaff, the area of Flagstaff has done similar.
    The metrics might be slightly different in different fuel 
types, but there is a breaking point where roughly we're able 
to treat 20 to 40 percent of a landscape that we believe our 
suppression costs will be reduced significantly and exposure to 
firefighters and all of the other costs.
    Senator Franken. So the evidence is that this can pay for 
itself or come close to paying for itself?
    Ms. Christiansen. Yes.
    Senator Franken. Or maybe more than pay for itself?
    Now, when Chief Tidwell came before the Committee in June 
to defend the President's budget, we discussed the possibility 
of hazardous fuel management supplying biomass for district 
energy projects or combined heat and power plants, especially 
in the wildland-urban interface.
    In Minnesota, however, these types of plants are having 
trouble competing in the electricity markets.
    Are there ways to incentivize the use of hazardous fuels to 
generate electricity? In other words, can we recognize the co-
benefit of wildfire risk reduction in these cases, especially 
on the wildland-urban interface, so that we are not looking at 
losing homes, you see? And does anyone have any thoughts on 
this because this is something, I think, we can, and I know the 
Chairwoman and I have sponsored combined heat and power and 
other ways to do energy projects using hazardous fuel. Anyone 
have any thoughts? Yes?
    Mr. Maisch. Ah yes, Senator.
    Certainly Alaska has a bit of an advantage because of our 
cold climate and projects like that actually pay their way. 
They don't need further incentive.
    Examples would be Tok, Alaska, Galena, Alaska, and other 
places where it's primarily for space heating and we do fuel 
mitigation work around the communities. The communities 
actually do the work with, sometimes a non-profit or a private 
business provide that fuel directly to the school or the other 
entity that has heating needs and these boiler systems provide 
the heat for the community.
    The Galena project is a classic example. It's a new one. I 
think there are 26 different buildings on a heat loop that are 
heated entirely from biomass from around the town. So it's a 
great example.
    There's only one example in Alaska where electricity is 
produced at a very low level, in Tok, but it provides the needs 
for the school when the boiler is operating at its highest.
    Senator Franken. You can also use it to cool. I mean, this 
is creating electricity.
    Mr. Maisch. Sure.
    Senator Franken. In light of and I know I'm out of time, 
but I just want to end with a comment.
    In light of what Ms. Christiansen is saying, where this 
clearing hazardous fuels can pay for itself or more than pay 
for itself and then on top of that, if we give some incentives 
to do district energy, to do energy projects in the wildland-
urban interface to save homes, I mean, so that we do not have 
to lose homes.
    It seems to me that it is just win/win/win, and I would 
like to work with the Committee on moving forward with that, 
those kinds of incentives to have those kinds of projects.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    I think the example that Mr. Maisch has given is a very 
small one, very discreet in a very remote area, but it 
certainly demonstrates the viability.
    We look forward to working with you.
    Senator King.
    Senator King. Thank you.
    I never thought I would have a chance to share this bit of 
knowledge, but one of our former state foresters informed me, 
and Ms. Christiansen you got it right, that Smokey Bear doesn't 
have a middle name. His middle name is not ``the,'' it is 
Smokey Bear. Is that correct?
    Ms. Christiansen. That is absolutely correct, Senator.
    Senator King. I think we want to clarify that for the 
record.
    Ms. Christiansen. Thank you.
    Senator King. That is a common misperception.
    Like I said, I never thought I would have a chance to get 
that straight in a Senate hearing.
    I would like to ask for some research, and I don't know 
exactly where it should be, perhaps you, Doctor, perhaps at the 
Department, to compare fire frequency and extent across the 
nation controlling for climate and species.
    What I am getting at is this. Maine is the most forested 
state in the country and certainly we have issues with forest 
fires, but nothing like the magnitude that we are seeing out 
West. When I talk to my forestry people in Maine, they say the 
solution is very clear. Our forest land is privately owned and 
it is intensively managed. In the West, it is mostly federally 
owned and it is not very intensively managed and there's not 
enough forestry being practiced.
    I would like to see some data that will either verify that 
or refute it. I think it would be very interesting, insofar as 
the science can do, can control for, as I say, things like 
climate and species and other differences to try to isolate the 
issue of intensity of forest management as playing a role 
because everything I have read is that the real problem in the 
West is too much fuel. There is too much fuel.
    If there is more intensive forestry practiced, the Federal 
Government will get more revenues from the stumpage, the 
economies will benefit, and I believe we will see less forest 
fires. The cheapest forest fire of all is the one that doesn't 
occur. Ms. Christiansen, can you help us on the research here?
    Ms. Christiansen. Senator King, I appreciate your 
observations. I don't have any research in my back pocket to 
share with you, but I do understand. I mean, we can certainly 
look at that. I'm sure we may have something.
    Now, I was a former state forester for 30 years for the 
State of Washington and the State of Arizona, and I partnered 
with the Forest Service for my entire time.
    Senator King. You probably know my former colleague, Susan 
Bell, who was the first female state forester in America.
    Ms. Christiansen. Yes, I do.
    Senator King. She was the one that told me about Smokey 
Bear.
    Ms. Christiansen. Yes.
    My point is, and maybe you were out when I referenced the 
data, our research does suggest that there's 480 million acres 
across the nation's forests, there's about 773 million acres of 
forest in this nation that have some kind of risk of 
uncharacteristic wildfire--94 million acres are National Forest 
System lands. So there are other lands that are at risk, but 
the practices of fuels management and how that relates to 
wildland fire risk, in particular, ecosystems and terrain and 
fire weather patterns. I think we do have studies about that, 
not necessarily comparing Maine to the Western U.S.
    Senator King. Well, I was thinking of Newton, Maine, or New 
England, generally--in New Hampshire/Vermont, there's a great 
deal----
    Ms. Christiansen. We'll certainly have a look and we'll get 
back to you.
    Senator King. I just think if you could isolate----
    Ms. Christiansen. Yup.
    Senator King. Down to what the factors are, it would be 
important, again, to either verify what my foresters in Maine 
from the private sector have been telling me for years or not. 
But it may be that part of what we need to be talking about 
here is breaking down some of the barriers to more intensive, 
sustainable forestry on the Western lands.
    That is all I have, Madam Chair. Thank you.
    The Chairman. Thank you, Senator King.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    To follow up on that, I am the Senator from Nevada, and 
Senator King and I just had this conversation.
    This is to Mr. Rice and Ms. Christiansen. Can you talk a 
little bit about cheat grass because in Nevada, as we know, 
sage brush is one of the most imperiled in the United States 
because of this invasive species, cheat grass? It is a fuel for 
the fires that we are seeing, particularly now in the State of 
Nevada when we had an incredible snow pack. We had beautiful 
green hills and mountains. Now it is dry and now it is turning 
into fuel, and what we are seeing in the wildfires is what you 
saw in that map in Northern Nevada. So I want to open it up and 
just, kind of, talk a little bit about this cycle of fire and 
cheat grass, if you would, please?
    Mr. Rice. Thank you, Senator.
    So the Sage Steppe ecosystems are these incredibly fragile, 
incredibly diverse ecosystems that we have throughout the Great 
Basin and the surrounding states. And what happens and from 
where I'm at in my position, looking at how wildfire interacts 
in that environment, historically, without cheat grass, the 
Sage Steppe clumps, the sage clumps, right, would be the 
natural breaks because it's not a continuous field that grows. 
What's happened is cheat grass has actually grown up and filled 
the gaps, so it ends up being this carrying fuel to, basically, 
perpetuate wildfire in large proportions across the Great 
Basin. In the Department of the Interior, we've spent the last 
several years and several years even prior to me being in this 
role, focusing on priorities in the Great Basin and addressing 
cheat grass.
    So in terms of doing rehabilitation work for large fires, 
one of the most recent fires I can talk about is the Soda Fire, 
estimated at nearly $60 million to rehabilitate that landscape, 
several hundred thousand acres. And there's a whole myriad of 
applications that are being tested so we can learn what can we 
actually do to address the cheat grass problem because it's not 
necessarily the fire problem in those areas, it's more a cheat 
grass issue.
    Senator Cortez Masto. And do you have the resources you 
need? This is my concern with what I have seen coming out of 
the recommended budget out of the Administration. It is cutting 
back on the resources that are necessary to engage in this type 
of management to prevent these fires that we are seeing.
    Mr. Rice. So to look at the budget do we--the way that we 
allocate across the different bureaus within the Department of 
the Interior is balancing the priorities, and there's four 
bureaus, four priorities. And then, once we start looking 
externally with our partners, counties, states, even in areas 
where we're jointly addressing issues with the Forest Service, 
it ends up we have to make tradeoffs. We have to look at making 
those decisions as we make the priorities.
    Senator Cortez Masto. That is my concern.
    As you well know, over 70 percent of Nevada is managed by a 
federal agency. And so, back to the Chairwoman's concerns. The 
interaction between those federal agencies and state and local 
agencies is so important as to how we manage this.
    My concern will always be tearing down any barriers and 
utilizing best practices to make sure we are doing the most 
that we can to protect that land and prevent wildfires and 
giving you the resources that you need. That is something that 
I will be very cognizant about.
    I am running out of time, but let me just touch on one 
other thing.
    I was just up in Northern Nevada. Nevada is one of the 
sites for testing of the UAVs. I was at Stead/Reno Airport and 
actually there while they were flying the drones and was able 
to manage the cameras and interact and operate the drones. It 
is incredible.
    They are working with our fire departments and fire 
services to really bring a whole new technology to the 
assistance in fire management, fire suppression, firefighting.
    I am curious. What are the barriers? What barriers are you 
seeing, if any, here at the federal level that prevent us from 
or our firefighters from using that new technology?
    Mr. Rice. Thank you, Senator.
    So looking at UASs, unmanned aircraft systems, and how 
we're integrating them into our operations. The first step, and 
we've cleared this hurdle, is working with the FAA and to have 
clearances and have the required COAs and different things 
needed to actually fly in those types of situations. The other 
areas that we're addressing is having trained pilots, having 
the actual technology. Is it a quadcopter? Is it a fix wing 
platform that we're working off of? And then what type of data 
are we capturing and how are we managing that on the back end 
because--and then the other piece of that I would add to it, as 
we're looking at integrating this new technology into our 
current operations, it's plug and play. But it's not plug, play 
and replace right away because in many instances where we have 
manned or piloted aircraft or we're moving people or we're 
moving equipment with piloted aircraft, we don't stop one or we 
can't stop one and begin the other.
    There needs to be this layer of overlap where we make sure 
we have the testing right. The research and development is in 
place. We have all the safety parameters because ultimately our 
number one priority is to ensure that the safety of our 
firefighters is taken care of in those operations.
    So, there's that overlap time. And whether that's one fire 
season or two fire seasons to get it right and actually deploy 
all of those assets, that's still going to take a little bit of 
time.
    Senator Cortez Masto. Thank you.
    The Chairman. Thank you, Senator.
    Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Ms. Christiansen, I am particularly interested in the role 
that education plays in wildfire prevention, and your testimony 
referenced a study in Florida that the benefit-to-cost ratio 
was as much as 35 to 1.
    I would like to note that wildfire risk is very high in 
Hawaii. Some people may not think so, but a greater percentage 
of Hawaii's land area is subject to a higher risk of wildfire 
than the 16 Westernmost of the states. So it is a huge issue 
for us.
    And nationally, 80 percent, 84 percent, I am told, of 
wildfires are caused by human action, but in Hawaii it's 98 
percent. So obviously educating people to not do certain things 
is a really important way to prevent.
    Senator King. You need Smokey Bear.
    Senator Hirono. Yes or whatever. It could be ManuHuni Bear, 
I don't care.
    [Laughter.]
    Okay, he is getting me started. For example, there are 
programs that we can have for children, especially to get them 
educated at a young age on things to do and not do. The 
National Park Service Centennial had a program called, ``Every 
Kid in the Park,'' which really enabled a whole new generation 
of young people to understand the importance of our public 
lands.
    I am wondering whether you have in the Forest Service youth 
programs that would educate children on wildfire prevention? 
Maybe you can think of something like Every Kid Preventing 
Wildfire programs in 2019? What are some of your thoughts on 
educating young people?
    Ms. Christiansen. Well, Senator, you can really get me 
started here, so let me try to be brief.
    We have a robust conservation education program in the 
Forest Service and it is, it aligns with the Smokey Bear Fire 
Prevention Program.
    As I said in my opening remarks, Smokey will be 73 next 
year and he's one of the world's most recognized characters 
along with the slogan of, ``Only you can prevent unwanted 
wildfire.''
    So we absolutely have tiering of what age groups we tier 
to. SmokeyBear.com has all kinds of tools and tool kits for 
parents and teachers and activities for kids. It will take you 
to discover the forest. It's another website that we manage.
    And it's not just to get folks to the national forests, of 
course, or the national parks, but discover a forest where 
you're at, whether you're in an urban area or a rural area. It 
might be a local park, a state park, an open area. There are 
many opportunities for us to engage.
    Senator Hirono. I am glad that you are doing that. I am 
just wondering that as you collaborate with state and other 
stakeholders, do you know if these tools are being utilized, if 
the education tools are being utilized extensively in every 
state, i.e. Hawaii?
    Ms. Christiansen. Yes.
    Smokey Bear, we're co-parents, Mr. Maisch and myself, are 
co-parents of Smokey Bear for the last 73 years. It's the state 
foresters and the U.S. Forest Service, in addition to the Ad 
Council. So they have access to all the programs. We have a 
joint council that governs Smokey and Discover the Forest 
campaigns. All of the access is with and through others, and 
the Every Kid in the Park, it was to celebrate, certainly, the 
National Park Centennial, but all of the federal agencies have 
offered the same passes. So we really work to not have the 
public or children no boundaries. It's about connecting to 
their resources.
    Senator Hirono. I will certainly check with our Hawaii 
people as to how extensively they are using these tools.
    Ms. Christiansen. Great.
    Senator Hirono. I do have a question about hazardous fuels 
to Mr. Rice.
    You note the importance of hazardous fuels management, 
specifically identifying how to control invasive weeds which is 
a huge problem in Hawaii. My question is you did note the use 
of technology during wildfire events. Can you briefly describe 
the Department's use of technology for prevention, say, to 
identify fire prone invasive species for removal before a 
wildfire starts?
    We have a lot of invasive species in Hawaii, including a 
lot that can be--that are just, they are hazardous fuels for 
wildfires.
    Mr. Rice. Thank you, Senator.
    So the way I would begin by looking at this--so, over the 
last year the Department of the Interior, the bureaus within 
the Department of the Interior, there's been hundreds of 
flights of UASs that have been utilized for various activities. 
Some have been testing on load carrying capabilities, others 
have been testing on data, elevation, mapping, infrared, just 
the different types of sensors that can go with it. So it has 
been used. It hasn't been deployed full heartedly across all 
the different disciplines but it's being looked at in all the 
different areas.
    Within the Department of the Interior, there's an aviation 
office, the Office of Aviation Services. My counterpart 
director there is leading the development of all of those 
activities. And then they're executed by each of the bureaus 
so, Bureau of Land Management, National Park Service, Fish and 
Wildlife Service, Bureau of Indian Affairs, across the board.
    Senator Hirono. I should check to see whether these 
unmanned systems or these drones are being used in Hawaii to 
identify areas where invasive species would be able to be their 
own fire hazard.
    Mr. Rice. I'd be happy to find out the specifics and 
provide it to you.
    Senator Hirono. Thank you very much.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    I appreciated the question from Senator Cortez Masto about 
the limitations on the UAVs and recognize that you still have 
some technological issues you are dealing with.
    The battery, as I understand reading through your 
testimony, Mr. Maisch, you have two hours, batteries take two 
hours to recharge. The 3DR solo has a range of a half mile 
maximum, endurance of 20 minutes. You are still limited to 
range of sight which means that you can only do this during the 
day and for us in Alaska in the summertime, we have the benefit 
of 24 hours up there, but in other places you have more limited 
application. But also, when you are in the thick of a fire, it 
is pretty dark in there with the smoke.
    Where I am going with this is the innovation within this, I 
think, is a very exciting area and application for UAVs, we 
still recognize that we need to push some of this out and it 
will allow us to do more.
    I will direct this question to you, Dr. Miller, because you 
have been engaged in some of the research. In addition to 
developing better UAV systems that will allow us greater 
opportunities, what else is out on the horizon there? You 
mentioned the mapping, but what is new and innovative that we 
might be looking to that can be utilized as yet another tool in 
the toolbox?
    Dr. Miller. Well, one of my colleagues, Dr. Nancy French, 
recently won a NIST award where they're going to try to make 
sure there's internet connectivity for the firefighters and 
BAER teams so they'll have mobile, you know, to create faster 
ways to get all the new information that's coming in.
    I'm looking forward to using my database with UAVs because 
there's no reason--right at the moment, it usually uses earth 
observation data from satellites, but there's no reason it 
couldn't come from mapping from the UAVs as well.
    The Chairman. I don't recall who made mention that we have 
these infrared cameras that are placed on certain mountaintops, 
maybe that was you, Mr. Rice? I just think of the Alaska 
example and we are just so huge, we are so big. We're talking 
in terms of millions of acres rather than thousands.
    And you mentioned the internet and the connectivity. That 
is a dream for us in most of these remote areas where we are 
dealing with the fires. Again, what more can you do? You just 
cannot hope that you put these sensors or these cameras in the 
right place and get lucky.
    You mentioned, Ms. Christiansen, that, I think, it was nine 
out of the ten forest fires are started by man. Okay, we can 
pinpoint better some of those literal hot spots, but in Alaska 
most of our fires are lightning strikes.
    Where else do you see us going, Mr. Rice or Mr. Maisch?
    Mr. Maisch. I'll start out. Thank you, Senator.
    I'll give you an example in Oklahoma. Oklahoma is working 
with the National Weather Service (NWS) and a Geo16 satellite 
that would actually do real-time detection of fire starts. And 
so, they piloted a project this year. It's, kind of, a beta 
test. And what this does is it gives you potential size. It 
gives you coordinates and the probability of error, whether 
it's a false detection or not. But it's still a very new effort 
and there happens to be a state that is pioneering that effort 
with, like I said, NWS. So there could be some application for 
that in other locations of the country as that technology is 
further refined and the algorithms that do the detection and 
model that are refined and tested.
    Another example is in CAL FIRE. They have a great 
application. It's an app that's available to improve public 
safety. It just came out, I think, this year. You can register 
as a member of the public to be notified in your county if 
there is an incident that you need to be made aware of. It's 
kind of like reverse 911, but it's actually an application, an 
app that you register to be part of. You can also allow it to 
track you. If you're traveling around the State of California 
it will send you notices for any areas that you happen to be 
that might have an incident that's unfolding.
    So, there's new technology out there, a lot of it, and I 
think a lot of it is just pushing it out to the agencies so 
they can start using it. As we use it, we're going to find new 
and more innovative ways to make it work better for us.
    The Chairman. Working with the FAA and dealing with the 
whole line of sight issue, do we have greater latitude in 
Alaska through our UAV Center of Excellence? Up on the North 
Slope, we have received permission to do testing that is beyond 
line of sight because of where we are. Are we able to utilize 
any of that with the UAVs that we are currently using to help 
us address the fire issues or are we still subject to the same 
limits?
    Mr. Maisch. Yes, to answer your question, we are still 
restricted to that line of sight or an observer that's in radio 
communications with the pilot. So, you can, kind of, tier it 
out further if you have someone that actually can observe the 
UAV in operation and communicate back to the pilot. At least, 
that's how we're doing it currently. But I think that will 
evolve as people become more comfortable with the safety 
aspects of using these types of tools in the same airspace that 
we other helicopters and----
    The Chairman. Yes, you have a lot going on.
    Mr. Maisch. That's right.
    The Chairman. Mr. Rice, did you want to add anything?
    Mr. Rice. Senator, what I would add to Mr. Maisch's 
comments.
    So FAA weather cams are all through the State of Alaska. 
Being a pilot, I've used them numerous times and being able to 
pick up anyplace if you're down in Juneau and you want to look 
at Barrow or you're out in Western Alaska and you need to see 
what's going on in the ``pass'' to get back into Anchorage.
    I think the ability and that type of example exists all 
across the country whether it's street cams or recreational 
cams that folks have up. Being able to leverage those different 
data streams is an option that we need to explore. It's 
something where, you know, right now we're talking about what 
do we have and what can we use.
    But let's talk about what's out there and what's available 
and how do we actually capture that and leverage those 
investments? So that's the first place.
    The other place, within some of the federal agencies, 
especially in DoD--so the Department of the Army has some 
smartphone devices, smartphone software, that allows data 
sharing rapidly. Right now it's only android base, so it's not 
on your iPhone, but it's on your other types of phones. But 
that's another example of ways that we can start managing 
technology better and building off of each other's investments.
    The Chairman. Thank you.
    I am going to have to go to the Floor. We have a vote 
coming up quickly, and I am going to go make a comment. I will 
ask Senator Cantwell to close out the hearing and just give you 
all my appreciation. Know that we want to work with you as we 
address these issues of fire management and how we deal with 
our wildfires around the nation.
    Thank you.
    Senator Cantwell.
    Senator Cantwell [presiding]. Thank you, Madam Chair.
    Mr. Rice, I wanted to follow up, obviously as Director of 
Office of Wildland Fire, on your comments just now about use 
technology that's out there.
    I'm aware of this USA Today article by Robin Will about a 
U.S. Fish and Wildlife Service presentation that they did, I'm 
reading now from the article, `` . . . presented its second 
annual National Fire Safety Award to Bart Rye,'' who was, ``He 
helped direct a lost firefighter to safety during a prescribed 
fire. Rye suggested to his fire crew on foot and all-terrain 
vehicles to carry GPS transmitter collars like those worn by 
hunting dogs so that up to ten resources could be tracked in 
real-time by a Burn Boss on a single hand receiver device.''
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Now, if this is available today and with 
what Mr. Maisch has just said about the drones, why not combine 
these two technologies today to get more firefighters more 
safety and security as they deal with these unbelievable 
conditions that can change so quickly?
    Mr. Rice. Senator, that's--it's a good idea and when 
Secretary Zinke came on board and we walked him through fire 
operations and how we have communications and what it all looks 
like and how we have the incident command system managing fire 
operations, one of the first things that he said to me was 
figure out how to keep track of our firefighters in a better 
way. So it's something that we're looking at.
    And this references your earlier question about, supportive 
of looking at it, we just don't know what that right tool is 
yet because with any number of tens of thousands of 
firefighters that can be out in the field during a fire season, 
we want to have the right solution that's effective, that's 
plug and play for anybody that shows up on a fire, just like 
there are Nomex that shows up on a fire is interoperable. We 
want the technology to be interoperable as well.
    Senator Cantwell. Well, I would say given this fire map and 
where we are, it is just scary.
    [The information referred to follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Now I can see that it is further into 
eastern Washington than the previous map had it as that was out 
a few months ago. A few years ago people said to us, you are 
going to be at the epicenter, and boy, were we. I'm just saying 
with this level of the West under these conditions, why not? I 
mean, if it's so easy just to go get some now, why not let the 
flexibility in the suggestion for this fire season be there?
    All I'm saying is the reason I am coming back to you on 
this is because in your first answer it was, kind of like, yes, 
we are going to look at it. We are going to see what we can do. 
These, as you just said, are tools that we can put in place 
today. You could even say that voluntarily we give the okay for 
these to be used. In this case, a U.S. Fish and Wildlife 
Service individual did it and then, as I said, received an 
award for the innovation of it.
    I would just say that the reason I am working with Senator 
Gardner is because I came to the Senate shortly after the Storm 
King Fire that killed so many people. Then we had the 
Thirtymile Fire which killed several individuals in our state. 
And then to have the loss of life two years ago. It is just a 
reminder that these conditions can get out of control so 
quickly and if we can put the firefighters, many times who are 
young, very new to the job, in a situation where they are 
depending on somebody who has greater visibility into a risk, I 
just think it would be so helpful to us, and also helpful in 
attacking the hotspots of the fire as well. Or knowing when we 
can pull back or knowing when to use other resources to attack 
it.
    So what about right now just moving forward on a voluntary 
basis to make sure that is clear to people that if they wish 
to, they can?
    Mr. Rice. Senator, so it is being used. I apologize for not 
being clear in my earlier answer. We do have folks in Fish and 
Wildlife Service, in the National Park Service, in the Bureau 
of Land Management, that are using this technology, but it's in 
very local areas. And so we're learning from that and looking 
at different ways that we can apply it across the enterprise. 
But that doesn't preclude our staff from using them locally, 
under----
    Senator Cantwell. So anybody could use them now? We could 
use them in the Northwest if we wanted to?
    Mr. Rice. The staff that are local are going to work 
through their local line officers. And this leads to a much 
broader question of at the department level we're empowering 
our line officers to make decisions in the field. And in order 
to do that----
    Senator Cantwell. Just so you know, it got so bad we called 
out the National Guard. I mean, we were taking volunteers--we 
had not done that in our state in a long time.
    I know Ms. Christiansen has been the forester there before, 
but the Northwest loves technology and it loves to keep pushing 
the envelope. So don't hold us back to getting solutions in the 
marketplace this summer if we can.
    Thank you.
    Senator King.
    Senator King. I am all set, Madam Chair.
    I just wanted to thank the witnesses. This has been a very 
informative hearing, and I thank you for your work and look 
forward to continuing to work on this problem with you. I 
appreciate it.
    Senator Cantwell. Senator Cortez Masto, any follow-ups?
    Well, I, too, would like to thank all the witnesses and the 
Chair for having this hearing. So timely. As we said at the 
beginning, we've already used up 50 percent of our resources. 
This map says it all.
    We have to keep ahead of these changing conditions which 
are giving us more volatile, more territory, more really, 
really economic and human loss to our nation that we need to 
deal with.
    Thank you all for your innovative ideas.
    We are adjourned.
    [Whereupon, at 11:56 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                        [all]
                        
                        
                        
</pre></body></html>
